  +,




    MEDICARE COVERAGE OF

 ENDOSCOPIC EXAMINATION OF THE

 LOWER GASTROINTESTINAL TRACT





         .. SI.R.V'CI..
       to"




             ""Ja


OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                     MAY 1989
   MEDICARE COVERAGE OF

ENDOSCOPIC EXAMINATION OF THE

LOWER GASTROINTESTINAL TRACT





                   RICHARD P. KUSSEROW
                    INSPECTOR GENERAL




OAI-02-88- 00090                         MAY 1989
                                EXECUTIVE SUMMARY


PURPOSE

To determe the appropriateness of Medicar payments for examnations of the lower
gastrointestial (01) tract; in parcular, the extent to which physicians may be billng for   can­
cer screenig, a routie procedure which is not reimbursable under Medicare.

BACKGROUND

Colorecta examations serve to help physicians detect such conditions as cancer or polyps.
Pror to the mid- 1970' s, the instrments used by physicians for these examnations were of
rigid design and did not lend themselves readily to examnation of the full length of the colon.

For the past 15 years, fiberoptic technology and endoscopic instrment development has
revolutionized examnation of the lower gastrointestial (01) tract. Fiberoptic endoscopic ex­
amation is . a technique in which a long, flexible tube- like instrment with special optical
propertes, is inserted via the rectum, permttg visual inspection of varable lengts of the
rectu and colon.

Tody, physicians have available diferent lengths of fiberoptic instrments for colorectal ex­
amnations. They include two tyes of flexible fiberoptic sigmoidoscopy (FS) instrments
which permt examation rangig to 65 centimeters (em), approximately 26 inches. The FFS,
a relatively simple outpatient procedur, is readiy mastered by the physician, has high patient
acceptance, represents low risk , and requires no sedation. Physicians who need to observe
conditions furer into the colon use a flexible colonoscope which permts examnation of the
entie lengt of the colon (approximately 135 em). Flexible fiberoptic colonoscopy (FC), in
contrst to FFS, involves more physician training and skil , more patient preparation and dis­
comfort, sedation of the patient, and greater risk and cost.

Endoscopic procedurs of the lower G1 trct are among the most frequently performed proce­
dures paid for by Medicar. Over 80 percent of these procedurs are diagnostic; others
done for therapeutic (removal of polyps) or specimen collection puroses. In 1985, 1.48 mil­
lion diagnostic colorectal examnations were biled to Medicare with allowed charges of $175
millon. Two year later, the number of examnations incrased by only 5. 2 percent, but al­
lowed charges increased by 44. 9 percent to $253 millon. This increased cost is primarly at­
trbutable to physicians ' shiftig from less expensive, rigid- instrment exams to the more
costly, flexible fiberoptic procedures. Durng the 3- year span, rigid instrment proctosig­
moidoscopies decreased while FFS and FFC procedurs incrased.

Under Medicare law, items and services which are not reasonable and necessar for the diag­
nosis or treatment of ilness or injury are, in general, excluded from coverage. Specifically ex­
cluded are expenses incurd for routine physical checkups, i.e., examations performed
without relationship to treatment or diagnosis for a specific ilness, symptom, complait or in­
jur such   as screning examnations for cancer of the colon in the absence of symptoms or
laboratory test evidence.

METHODOLOGY

A statisticaly vald random sample of 294 Medicar reimbursed clais was selected. Copies
of medical records contaning all penient pre- and post-endoscopy notes, related consultation
repons, and laboratory test results were requested. The 010 contracted for a medical review
of the records.

The 35 caners responsible for adjudicatig the sample claims were asked for information on
medical policy and clais processing procedures used by them to make coverage and pay­
ment determations. These documents were analyzed to identiy           caner practices designed to
assur that payments ar      made only   for services that are covered and ar   medicaly necessar.

FINDINGS

Twenty-seven Percent   Of Claims For Endoscopic Examinations Of The Lower GI Tract
Were Found Not Appropriate For Medicare Reimbursement

      Medical review determnations on 237 patients ' medical records found that 65
      procedures (27.4 percent) were not appropriate for Medicare reimbursement. These
      procedures were done for noncovered cancer screening puroses or for other
      noncovered procedures. Other claims did not contain suffcient medical documentation
      by tratig physicians to make a coverage determnation.

Projectig these findings to the 1.5 milion claims paid in 1986 indicates Medicare made inap­
propriate payments of $39, 249, 000.

Incorrect Payments Were Mad Because Of Inaccurate Diagnostic Information Provided
On Claims

      The reliabilty of the diagnosis and medical condition information contained on the
      claim forms is questionable as determned by a review of the sample claims. It was
      found that if taken at face value, without furer medical information, 93 percent would
      appear to justify payment based on Medicare guidelines. This is in shar contrast to the
      medical review results reponed earlier which show that 27.4 percent of the' actual
      medical records did not suppon the decision to pay for these procedures.

      Only 9 of the 35 caners have specific prepayment claims processing instrctions for
      their claims examners ' use in determining coverage.

      Only 1 of 35 caners had provided educational materials to physicians regarding
      coverage of these procedures.
RECOMMENDATIONS

The HCFA should alen its caners to the national inspection finding of substantial amounts of
inappropriate payments being made. In addrssing corrective actions, HCFA should consider
having its caners:

     provide inormation to the medical community though bulletins and other techniques
     regarding the limits of Medicar coverage for such procedures and the medical record
     documentation necessar to suppon payment; and



      give increased attention to these procedures as pan of postpayment reviews.


COMMENTS ON DRAFT REPORT

Comments received from the Actig Admnistrator of HCFA indicate agrement with our
recommendations for corrective actions to reduce inappropriate payments identied by this in­
spection. The HCFA indicates that it wil:

      shar this repon with caner officials;

      discuss the topic with caner medical diectors at their next scheduled meeting;

      recommend to caners that they dissemiate information on limts of Medicare coverage
      for these services and medical documentation necessar to suppon payment; and

      encourage caners to give attention to these procedures in their postpayment process.

The HCFA also expressed its primar reliance on education of the medical community to
reduce these unnecessar payments. The time-consuming nature of postpayment medical
review was noted in HCFA' s comments. The 010 is supportve of all the planned actions of
HCFA but continues to emphasize the value of well-targeted postpayment review as an effec­
tive safeguard.
               .......................................................
                . . . . . . . . . . . . . . .
                                            . .. .. .. .. .. .. .. .. .. ... ... ... ... ....'              .. ... ... ... .
                                                                                             .. ... ... ... .              .. ... ... ... .. .. ... ... ... ... ... ... ... ... ... ... ....... ......




                                                      TABLE OF CONTENTS


EXECUTIVE SU


INTRODUCTION . . . .

FINDINGS . . . .

      Twenty-seven percent of clais for colorecta examations were found
      not appropriate for Medicar reimburement

      IncoITect payments were made because of inaccurte diagnostic
      inormation supplied on claims. . . . . . .

RECOMMENDATIONS

APPENDIX I .........................................................                                                                                                                           1­


      Payment projections

APPENDIX n                                                                                                                                                                                     ll-

      Comments on the draft report
                                     INTRODUCTION

Nature of Service

Endoscopic examations of the lower gastrointestinal (01) tract are uncomfonable but impor­
tant medical procedures. The purose of these procedures is to check for such conditions as
polyps and cancer of the colon. 





Pror to the mid- 1970' s the available instrments were of rigid design and did not alow for ex­
amation of the entie length of the colon. One such item is the rigid proctosigmoidoscope
which alows examnation up to 25 centimeters (cm) (approximately 10 inches). Fiberoptic
technology and endoscopic instrment development has revolutionized examation of the
lower gastrointestinal trct. Fiberoptic endoscopic examation is a technique in which a long,
flexible tube- lie instrment, having special optical propertes, is insened via the rectum , per­
mittg visual inspection of varable lengths of the rectum and colon.
Today, physicians have available diferent   lengths of fiberoptic instrments for colorectal ex­
amnations. Two tyes of flexible fiberoptic sigmoidoscopy (FS) instrments permt ex­
amnation raging to 65 cm (26 inches) in lengt. The shoner flexible scope permts
visualization of slightly more distance than the rigid proctosigmoidoscope and is increasing in
use due to better patient and physician acceptace of flexible instrments. The longer FFS is
utilized to view the enti descending colon from the rectum to the splenic flexur.
The FFS, a relatively simple outpatient procedur, is readily mastered by the physician, has
high patient acceptance, represents low risk and requirs no sedation. Usual reasons for per­
formg the procedur include: (a) evaluatig patients with symptoms of recta bleeding,
chronic diarhea, constipation or abdominal pain; and (b) periodically checking asymptomatic
patients over age 50 for early detection of colorectal polyps and cancer.

Physicians who need to observe conditions beyond the descending colon use a eolonoseope
which permts visualization up to 135 em in length. Flexible fiberoptic eolonoscopy (FC), in
contrst to FFS, involves more physician training and skil , more patient preparation and dis­
comfon, sedation of the patient, and grater risk and cost. Uses for this procedure include: (a)
evaluation and treatment of abnormalties found on barum enema; (b) lower 01 bleeding; (c)
evaluation and treatment of neoplastic polyps (tissue growth) and (d) sureilance of high- risk
patients.

Medicare Reimbursement

Endoscopic procedurs of the lower 01 trct       among the most frequently performed proce­
                                                   are
dures paid for by Medicar. Over 80 percent of these procedures are diagnostic; others are
done for therapeutic (removal of polyps) or specimen collection puroses. As shown in figure
 , in 1985, 1.48 milion diagnostic colorecta examnations were biled to Medicare with al­
lowed charges of $175 millon. Two year later, the number of examnations increased by 5.
percent; however, alowed charges increased by 44. 9 percent to $253 millon.

                                                  FIGURE I

Type Of                     Frequency                                     Allowed Charges
Service                    (thousands)                                       (millons)




Rigid          627            528           461                     $25         $20            $20
FFS*           615            703           758                     $71         $86            $95
FFC

Total         1480          1504          1558                     $175        $205           $253

   * Combined total of FFS formrly reported as two distinct procedures.



Durg ths 3- year span, rigid instrment         proctosigmoidoscopies decreased while FFS and
FFC procedures incrased. These trends together with higher reimbursement allowances for
flexible procedures priary account for the signifcant increase in allowed charges.
Reasonable charge reimbursement for rigid, FFS, and FFC is related to the visual distance of
the colorecta examation; Four procedure codes were used though 1987 to repon the dis­
tance of colorecta diagnostic examnations, two of which applied to flexible              fiberoptic sig­
moidoscopies. At the request of the American Society for Oastrointestinal  ndoscopy
(ASOE), the American Medical Association (AMA) revised the 1988 version of the
Physicians ' Curent Procedural Termnology (CPT- 4) to establish a single procedur code for
FFS. In turn , HCFA instrcted its caners to process and pay for FFS under one code, effec­
tive Januar 1988.
Guidelines of Medical Professions

In July 1987, testiony before the Physician Payment Review Commssion , the American
Society for Oastrointestial Endoscopy (ASOE) stated:

       The primary reasonfor the numers of diagnostic colonoscopies relates to the health
        care problem of colon cancer in the United States Colonoscopy is the primary method
       for discovery and excision of colonic polyps that are either precancerous or cancerous.
       As we know, early detection and removal of the polyps can substantially aid   in the
       prevention offuture problems for these patients. Routine screening of the colonfor
       people who are indicatedfor such screenings, such as the President of the United States,
       can have a signifcant impact on maintenance of health statu and prevention of further
       and more costly problems.

Whe the ASOE statement specifcaly       references " colonoscopies, "   routine screning by sig­
moidoscopy is more prevalent.

The American Cancer Society espouses annual screening examnations via sigmoidoscopies at
ages 50 and 51; after two successive negative fmdings, the procedure should be repeated
every 3 to 5 years.

Medicare Coverage Limitatons



Under Medicare law, items and services which ar    not reasonable and     necessar for the diag­
nosis or tratment of illess or injur ar, in general, excluded from coverage. Specificallyex­
cluded are expenses incurd for routie physical checkups, i.e. , examations performed
without relationship to treatment or diagnosis for a specifc ilness, symptom, complaint or in-

Jur.
Pror to the passage of the Medicare Catastrophic Coverage Act of 1988, no tyes of cancer
screening exams were covered by Medicare. The catastrophic coverage legislation , however
provided coverage of cancer screening mamography (subject to frquency limitations,
qualty standards and special payment rules) effective Januar 1, 1990. This legislation also
established a Biparsan Commssion on Comprehensive Health Car to make recommenda­
tions to Congrss on other preventive health care services, among other items. .

Medicare caners are requied to apply safeguards against unnecessar utilization of services
furished by   providers. They do this by conducting prepayment and postpayment reviews
designed to detect inappropriate, noncovered, or excessive services and potentially frudulent
practices. The review process leads to correctig inappropriate progr payments by
recovery of overpayments, preventing funher abuse by educating the individual provider and
where similar issues of progr abuse appear to be widespread among providers reviewed, is­
suing bulletins to the medical community on acceptable biling practices.
PURPOSE

This inspection was undenaken to determne the appropriateness of Medicare payments for
colorectal examnations-- in parcular the extent to which physicians may be billing for cancer
screening examnations not covered by Medicare.

SCOPE AND METHODOLOGY

A statisticaly valid random sample of 294 Medicare-reimbured clais from around the
countr, for the four levels of diagnostic endoscopic procedures, was selected from the 1986
HCFA- BMA data base. Sixty-two of these records indicated that the procedure was per­
formed at hospitas, with the remaining 232 reponed as being done by physicians in their of­
fices. Copies of medical records containing all pertnent pre- and post-endoscopy notes,
related consultation repons, and laboratory test results were requested for al patients in the
sample. We were able to obtan records from 237 respondents (81 percent). The 010 con­
tracted fora medical review of the records. A board-certfied gastroenterologist presently in
clical practice and knowledgeable of curent practices and utilization guidelines, made and
recorded review determnations. The oro was then provided with quantitative and nartive
fmdigs.

The prescribed review areas included patient status (referr ,   new or established), evidence to
suppon endoscopy performance (clinical , laboratory and history), compatibilty of reason for
the exam as noted in clinical records with the reason on the biling   form, and medical neces­
sity determnation for Medicar puroses.

The 35 caners responsible for adjudicating the sample claims were asked for information on
medical policy and clais   processing   procedures used by them to make coverage and pay­
ment determations. These documents were analyzed to identiy           caner practices designed to
assure that payments ar made only for services that are covered and ar medically necessar.
Hard copy and electronic media claims were evaluated to determe whether the caners had
received adequate information on them regarding the nature of the patient s medical condition.
                                                 FINDINGS


Twenty-seven Percent              Of Claims For Endoscopic Examinations Of The Lower GI Tract
Were Found Not Appropriate For Medicare Reimbursement

Medical review         determations on 237 patients ' medical records found that 65 procedures
(27.4 percent) were not appropriate for Medicar reimbursement. These procedures were
done for noncovered cancer screening puroses or for other noncovered procedures. Other
clai   did not contan sufficient medical record documentation by trating physicians to make
a coverage determation. The breakdown of the 65 cases is as follows:

     Cancer screening examinations 
            - Thiny procedurs (12. 7 percent) were determned to
     be noncovered for Medicare reimbursement due to clear indications in the medical
     record that the procedure was performed for cancer screening puroses.

       Other noncovered procedures 
          - Founeen procedures (5. 9 percent) were determed to
       be noncovered for other reasons:

                Six procedures were not justied since results of previous procedures and/or tests
                were conclusive in the diagnosis and/or treatment of the patients ' condition.
                These included instances where the source of the medical problem had been
                identified or recent procedurs produced negative fidings.

                Procedures were performed on five patients who did not have any recent history,
                laboratory evidence or clinical symptoms indicating the necessity for the
                procedure.

                Thre procedures were performed without medical justification 6 to 12 months
                prior to the time which current practices and general guidelines call for in
                follow-up surveilance.


                                  - Twenty-one records (8. 9 percent) did not contan suffi­
       Insufficient documentation 


       cient medical documentation to enable the reviewer to make a determnation that the pro­
       cedure perforied was covered. In these cases there were no medical record notes of
       clinical symptoms, laboratory test results or medical history to indicate the necessity for
       performg the examation.
Projectig these findings to the 1.5 milion claims paid in 1986 indicates Medicare made inap­
propriate payments of $39, 249, 000.
Incorrect Payments Were Made Because Of Inaccurate Diagnostic Information Provided
On Claims

In attemptig to understand   the caners ' role in reimbursing the sample cases, a review was
made of the diagnoses and/or medical condition information contained on the claims forms
themselves or an attachment. The intention was to determne whether this information alone,
in the absence of the actual medical records, would have justified considering the services
covered under Medicare s guidelines.

The results indicate that the great majority contaied   what would seem to   be sufficient
documentation. Of the 237 sample claims:

      221 claims (93 percent) contained diagnoses or medical conditions for which carers
      could presume that the endoscopic procedures were covered;

      16 clais (7 percent) should have been denied coverage or developed for additional
      inormation by caners to determne whether the procedurs        werecovered. Of these,
      five clais clearly indicated that the procedur was for cancer screening puroses, thee
      clais did not contan any diagnostic or medical condition information and eight claims
      contaied medical conditions which , in and of themselves, did not indicate that the
      procedure could be presumed to be covered.


In another attempt to understand why the latter 16 claims were not questioned by the caner
an analysis was made of the documents descrbing internal claims processing procedures and
policies of caners. Only 9 of the 35 caners were found to have specifc prepayment claims
processing instrctions for their clais examers ' use in determing cov rage. Such caner
instrctions tyically cite specifc diagnoses and medical conditions to allow a presumption of
coverage; lackig these, examers are instrcted to deny payment.

Our review of the caners ' response to our request for copies of provider bulletins they had is­
sued with specific coverage information regarding these procedures indicates a paucity of at­
tempts to provide educational material to the medical community regardig coverage issues
identied in ths inspection. We found that only one of 35 caners had done so. This caner
had prepared an anicle on colonoscopy clais.

The main problem appears to be that roughly three- quaners of the questionable clais (49
65) which were determned in the fIrst findig to be noncovered (based on a review of the ac­
tual medical records). contained seemingly satisfactory information on physicians ' clais
forms to allow payment

A review of the sample claims forms and supponing documents indicates that vinually all of
the diagnostic information was provided by the physician or his/her authorized representative.
As such , responsibility for misrepresenting the reason for the procedure, which occurred in
many of these cases, rests with the physicians.
The 010 did not seek to obtan explanations from physicians responsible for the content of the
clai information , nor did the sample methodology permt an analysis of whether the 49
physicians responsible for these claims routiely provide " suspect " information. It should be
noted that the Medicare Pan B clai form (HCFA- 1500) instrcts physicians that the services
shown on the form should be medically indicated and necessar for the health of the patient
and that misrepresentation of essential inormation to receive payment may be subject to fine
and imprisonment.
                                 RECOMMENDATIONS



The HCFA should alen caners to the substantial amounts of inappropriate payments being
made. In addressing corrective action , HCFA should consider having its caners:

     provide inormation to the medical community, though bulletins and other techniques,
     regarding the limits of Medicar coverage for such procedures and the medical record
      documentation necessar to suppon payment; and



      give increased attention to these procedures as pan of postpayment reviews.


COMMENTS ON DRAFT REPORT

Comments received from the Acting Admnistrator of HCFA indicate agreement with our
recommendations for corrective actions to reduce inappropriate payments identified by this in­
spection. The HCFA indicates that it wil:

      snar tnS repon with caner officials;

      discuss the topic with caner medical diectors at their next scheduled meeting;

      recommend to caners that they disseminate information on limits of Medicare coverage
      for these services and medical documentation necessar to suppon payment; and

      encourage caners to give attention to these procedures in their postpayment process.


The HCFA also expressed its primar reliance on education of the medical community to
reduce these unnecessar payments. The time-consuming nature of postpayment medical
review was noted in HCFA' s comments. The 010 is supportve of all the planned actions of
HCFA but continues to emphasize the value of well-targeted postpayment review as an effec­
tive safeguard.
                                         APPENDIX I

PAYMENT PROJECTIONS

The data for ths inspection consisted of 294 records drwn from the fourh quaner of the
1986 BMA fie. These records represent a 0. 08 percent sample of all Medicare Pan B bils
for that quaner. The results of the review indicate that 65 of the bils represented by these
records were inappropriately paid a total of $7, 850. 00 in alowed charges. The average
amount inappropriately paid per record is $26. 70 with a stadard error of 4. 572. This gives a
90 percent confidence interval of $19. 18 to $34. 22 per record. This sample represents ap­
proxiately 367, 500 records in the universe of the four quaner of 1986. The projections
would indicate that $9, 812 250. 00 (standad error of 1, 680, 477) was inappropriately paid in al­
lowed amounts in this universe. The 90 percent confidence interval runs from a lower cutoff
point of $7 047, 915 to an upper cutoff point of $12, 576, 585.

Assumig that the other thee quaners of 1986 are identical to the four quaner, both in the
distrbution of bils and in expected fmdings, then a I- year estiate of the potential inap­
propriate payment would be $39, 249 000. 00 (stadard error of 6, 721, 908). The lower 90 per­
cent confidence interval cutoff point would be $28, 191 660. 00 and the upper cutoff point
would be $50, 306,340. 00. These figues give an overall precision of approximately 28 per­
cent.
APPENDIX II





    ll­
                                       &.




                                                                                Healttl Care
                                                                                Fln nclng AdmInistration
              DEPARTMENT OF HEALTH          HUMAN SERVICES


't.,...
                                                                                Memorandum
                                                          APR , 3 1989
   Dale

    From
              Louis B. Hays 


              Acting Admini
                                tl. A.
                                              II
              OIG Draft Report: Medicare Coverage of Endoscopic Examination of the

    Subject   Lower Gastrointestinal Tract - OAI- 02-
                                                        88- 00090

              The Inspector General

               Offi ce of the Secretary

               We have reviewed the OIG draft report performed to determine the

               appropriateness of Medicare payments for examinations of the lower

               gastrointestinal tract, in particular the extent to which physicians may be

               billing for cancer screening whic is not reimbursable under Medicare.

                                                                       carriers, HCFA will

               In order to bring this prob'em to the attention of the 

                                             , and the top1 c will be placed on the agenda

               share the OIG report with the
               of the May 23, 1989 meeting of the carr1 er    medi ca   1 directors. t
                                                                                n 11 ne wi th

               the postpayment alert li st (Medi care Carri ers
                                                                  Manual, section 7514 E), we
               wi 11 recommend that medi ca 1 di rectors provi de i nformati on to the medi ca 1
               community through bulletins and other techniques regarding the limits of

               Medicare coverage for such procedures and the medical record documentation

               necessary to support payment.


               Although we will encourage the carriers to give their attention to this

               procedure in their postpayment review process, we believe that
                                                      s. to educate the medi ca 1 the
               to reduce these unnecessary payments 1 

                                                                                      best way

                                                                                  COl1unity
               set out in the previous paragraph. post-payment medical review can Medical
                                                                                       be an

                                                                                process.
               effective tool, but it is a time-consuming and expensive 

                                                         ' offices and reviewed by carrier

               records must be obtained from physicians
               medical staff. Costs for this activity can average $15     per claim and

                                                                      to the anticipated

               higher. These costs must be considered in' relation
               dollar return and within the context of the finite funding allocated for

               this activity.


                Thank you for 9iving us the opportunity to cOl1ent on this draft report.

